Department of Homeland Security
   Ofﬁce of Inspector General

        DHS Contracts Awarded Through Other than 

     Full and Open Competition During Fiscal Year 2008 





OIG-10-71                                        March 2010
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                       MAR 2 5 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the department's noncompetitive
procurement process. It is based on interviews with employees and officials, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.
                                                                  r
                                      -4~~,~ £, ~ ~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................6
 


     Recommendations........................................................................................................13 

     Management Comments and OIG Analysis ................................................................13 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................16 

     Appendix B:           Management Comments to the Draft Report .......................................18 

     Appendix C:           DHS Contracts Reviewed ....................................................................33 

     Appendix D:           Major Contributors to this Report........................................................34 

     Appendix E:           Report Distribution ..............................................................................35 


Abbreviations
     AAP                   Advance Acquisition Plan 

     CPO                   Chief Procurement Officer 

     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulation 

     FPDS-NG               Federal Procurement Data System-Next Generation 

     OIG                   Office of Inspector General 

     TSA                   Transportation Security Administration       

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Public Law 110-329, the Consolidated Security, Disaster
                   Assistance, and Continuing Appropriations Act, 2009, included a
                   requirement that the Department of Homeland Security Office of
                   Inspector General review the department’s contracts awarded
                   through less than full and open competition during fiscal year 2008
                   to determine compliance with applicable laws and regulations. To
                   meet this mandate, we reviewed selected DHS component
                   procurement files, as well as DHS policies, procedures, and
                   management controls, to determine whether acquisition personnel
                   appropriately documented and supported contracting decisions.

                   In fiscal year 2008, the Department of Homeland Security
                   obligated about $3.5 billion for procurements awarded through
                   other than full and open competition. Based on our review of 39
                   contract files with a reported value of more than $72 million,
                   acquisition personnel did not always follow federal regulations
                   when awarding noncompetitive contracts. Award files did not
                   always contain sufficient evidence of market research or adequate
                   acquisition planning. As a result, the department cannot ensure
                   that it received the best possible value on these acquired goods and
                   services.

                   We are making two recommendations that the department’s Chief
                   Procurement Officer strengthen internal controls over other than
                   full and open competition procurements. The Chief Procurement
                   Officer concurred with the intent of Recommendation 1 and fully
                   concurred with Recommendation 2. If implemented, these actions
                   should help enhance the effectiveness of the department’s
                   noncompetitive procurement process.




           DHS Contracts Awarded Through Other Than Full and Open Competition 

                                During Fiscal Year 2008 


                                         Page 1 

Background
                The Competition in Contracting Act of 1984 requires, with limited
                exceptions, that contracting officers promote and provide for full
                and open competition in soliciting offers and awarding United
                States government contracts. The Federal Acquisition Regulation
                (FAR) was established to codify uniform policies for acquiring
                supplies and services by executive agencies.

                The Office of the Federal Procurement Policy within the Office of
                Management and Budget plays a central role in shaping the
                policies and practices that federal agencies use to acquire the goods
                and services they need to carry out their responsibilities. The
                office employs several tools to collect, develop, and disseminate
                government-wide procurement data for use by federal agencies and
                the general public, the most significant being the Federal
                Procurement Data System-Next Generation (FPDS-NG). The
                Government uses FPDS-NG reported data to measure and assess
                various elements of procurement performance, including funds
                obligated and the extent of competition. The Office of Federal
                Procurement Policy requires that executive agencies annually
                certify that the data they enter into FPDS-NG is valid and
                complete.

                During fiscal year 2008, DHS contracting personnel were required
                to follow acquisition requirements set forth in the FAR, the
                Department of Homeland Security Acquisition Regulation, and the
                Department of Homeland Security Acquisition Manual. However,
                contracting personnel at the Transportation Security
                Administration (TSA) were not required to follow procurement
                requirements set forth in the FAR, Department of Homeland
                Security Acquisition Regulation, or Department of Homeland
                Security Acquisition Manual until June 2008. Instead, until this
                date, TSA contracting personnel followed TSA Management
                Directives 300.4, Competition and Single Source Acquisition and
                300.8, Acquisition Program Planning, Review, and Reporting for
                conducting non-competed procurement and acquisition planning
                activities.

                Competition is desirable because it can result in timely delivery of
                quality products and services at reasonable costs. It encourages
                contractors to offer best value proposals for meeting mission needs
                and requirements when bidding on federal contracts, thereby
                reducing costs and protecting the interest of taxpayers. According


        DHS Contracts Awarded Through Other Than Full and Open Competition 

                             During Fiscal Year 2008 


                                      Page 2 

                         to FAR § 2.101, best value is “the expected outcome of an
                         acquisition that, in the Government’s estimation, provides the
                         greatest overall benefit in response to a requirement.” Competition
                         also discourages favoritism by leveling the playing field for
                         contract competitors and curtailing opportunities for fraud and
                         abuse.

                         Contract specialists are required to perform certain steps during the
                         other than full and open contracting process. As depicted in the
                         flowchart below, the other than full and open competition process
                         begins when a need is identified. Afterwards, market research is
                         performed to determine the most suitable approach for acquiring,
                         distributing, and managing supplies and services to support the
                         department’s mission. Acquisition planning helps ensure that the
                         government is meeting its needs in the most effective, economical,
                         and timely manner. With this assurance, acquisition personnel
                         announce a solicitation on FedBizOpps, the single, government-
                         wide point of entry for federal procurement opportunities greater
                         than $25,000. Government buyers can publicize their business
                         opportunities by posting information directly to this website.
                         Within 14 days of posting the solicitation, acquisition personnel
                         award the contract and publish the justification and approval
                         document on FedBizOpps, ending the contracting process.1




                         The following entities within the Department of Homeland
                         Security (DHS) have a role in managing these procurements:

                              �	 The Office of the Chief Procurement Officer – DHS
                                 Management Directive 0784, dated December 19, 2005,
                                 places responsibility on this office for ensuring the integrity
                                 of all acquisitions that support DHS. The office provides

1
 The FAR allows exceptions to the standard process for contracts awarded using the Unusual and
Compelling Urgency exception to support other than full and open competition.


                 DHS Contracts Awarded Through Other Than Full and Open Competition 

                                      During Fiscal Year 2008 


                                                Page 3 

                policy, procedures, guidance, and training to the
                department’s acquisition workforce. The office also
                oversees the acquisition of contracted goods and services
                for DHS through several entities, such as the Acquisition
                Oversight and Strategic Support Branch, the competition
                advocates, and heads of contracting activity.

            �	 The Acquisition Oversight and Strategic Support Branch –
               Within this branch, a staff of employees conducts oversight
               to verify the integrity of the acquisition practices of DHS
               and its components. This branch also provides acquisition
               training, offers consultation services for DHS contracting
               personnel, and serves as external audit liaison on
               acquisition-related topics. The Acquisition Oversight
               Team is responsible for reviewing procurements within
               specified thresholds to ensure compliance with applicable
               regulations and policies.

            �	 The DHS competition advocate is responsible for
               promoting full and open competition; promoting
               acquisition of commercial items; and removing barriers to
               full and open competition, such as unnecessarily restrictive
               statements of work, overly detailed specifications, and
               burdensome contract clauses. The competition advocate
               must submit an annual report to the Chief Procurement
               Office on the components’ procurement activities.

            �	 Procuring Competition Advocate is responsible for
               promoting full and open competition; promoting
               acquisition of commercial items; and removing barriers to
               full and open competition, such as unnecessarily restrictive
               statements of work, overly detailed specifications, and
               burdensome contract clauses at the component level.
               Procuring Competition Advocates must submit an annual
               report to the DHS Competition Advocate on the
               component’s procurement activities.

            �	 Heads of contracting activity directly manage the
               procurement functions of their respective components.
               They assist in the execution of acquisition programs by
               providing all of the necessary resources, facilities, and
               infrastructure for the acquisition process. The heads of
               contracting activity also provide procurement data and



DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 4 

               lessons learned to the Chief Procurement Officer for wider
               distribution within DHS.
            �	 Contracting officers are responsible for many of the
               activities leading up to an acquisition for goods or services.
               This includes ensuring that sufficient funds are available
               for obligation, requesting offers from as many potential
               sources as practicable, certifying that all required
               justifications and approvals are accurate for awarding
               contracts noncompetitively, and determining that the
               anticipated cost will be fair and reasonable to the
               government. Contracting officers are also responsible for
               timely and accurate reporting of procurement data to the
               FPDS-NG.

            �	 Program managers within DHS are empowered to make
               final scope of work, capital investments, and performance
               acceptability decisions, and are responsible for
               accomplishing program objectives or production
               requirements through the acquisition of in-house, contract,
               or reimbursable support resources, as appropriate. The
               program managers’ duties include developing and updating
               the acquisition plan, coordinating with other personnel
               responsible for significant aspects of the plan, obtaining
               applicable concurrences, and forwarding the plan through
               the approval process.

            �	 Technical Representatives are responsible for providing
               and certifying as accurate and complete necessary data to
               support their recommendation for other than full and open
               competition.

        On September 30, 2008, the President signed Public Law110-329,
        the Consolidated Security, Disaster Assistance, and Continuing
        Appropriations Act, 2009. Section 525(d) of the law directs the
        Office of Inspector General (OIG) to review the department’s
        contracts awarded during fiscal year 2008 through other than full
        and open competition to determine departmental compliance with
        applicable laws and regulations. To meet the requirements of this
        legislative mandate, we reviewed selected DHS component
        procurement files for contracts awarded during fiscal year 2008
        through other than full and open competition to determine whether
        all required justifications and other elements were documented and
        approved at the appropriate level. We selected 39 noncompetitive
        procurements for review with a total estimated value of more than


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 5 

                  $72 million. We reviewed DHS policies, procedures, and
                  management controls to determine whether acquisition personnel
                  appropriately documented and supported contracting decisions.

Results of Audit
          Our review and analysis of 39 DHS procurement files recorded during
          fiscal year 2008 as other than full and open competition showed that 33
          had missing or inadequate documentation to demonstrate compliance with
          departmental or federal acquisition regulations. FAR § 4.801(b),
          Government Contract Files, requires that contract file documentation be
          sufficient in order to constitute a complete history of the transactions for
          the purpose of:

              �	 Providing a complete background as a basis for informed decisions
                 at each step in the acquisition process;
              �	 Supporting actions taken;
              �	 Providing information for reviews and investigations; and
              �	 Furnishing essential facts in the event of litigation or congressional
                 inquiries.

          The procurement files reviewed did not always have sufficient evidence of
          market research or acquisition planning. Acquisition personnel did not
          always follow regulations, policies, or procedures to support awarding the
          contracts through other than full and open competition. As a result, the
          department cannot ensure that it received the best possible value on the
          goods and services it acquired from these contracts.

                  Noncompetitive Procurement Justification and Approval

                  Although competition is the preferred method of acquisition within
                  DHS, FAR §§ 6.302-1 – 6.302-7 permits the following
                  circumstances for other than full and open competition:

                  �	 Only one responsible source and no other supplies or services
                     to satisfy agency requirement;
                  �	 Unusual and compelling urgency;
                  �	 Industrial mobilization; engineering, developmental, or
                     research capability; or expert services;
                  �	 International agreement;
                  �	 Authorized or required by statute;
                  �	 National security; and
                  �	 Public interest.


          DHS Contracts Awarded Through Other Than Full and Open Competition 

                               During Fiscal Year 2008 


                                        Page 6 

                          The FAR requires that any agency contracting officer who
                          approves the acquisition of goods
                          or services through other than full Figure 1. Exceptions to Written Justification
                          and open competitions provides      and Approval Requirement for Non-
                                                              competed Procurements
                          written justification. The
                          justification must have the proper 1: Agency need for a brand name commercial
                          approvals from the appropriate      item for authorized resale.
                          authority based on an established   2: Acquisition from Qualified Nonprofit
                          dollar threshold. Depending on      Agencies for the Blind or other Severely
                                                              Disabled.
                          the dollar amount of the
                                                              3: Sole source awards under the 8(a) Program.2
                          acquisition, the justification
                          approval requirements may vary.     4: When a statute expressly requires that the
                                                              procurement be made from a specified source.
                          For procurements that require
                          written justification, the          5: Sole source acquisitions with an estimated
                                                              value equal to or less than $100,000 that qualify
                          contracting officer must sign to    under the FAR test program for certain
                          certify that the information is     commercial items.
                          complete and accurate. As shown 6: USCG is exempt from the requirement for
                          in figure 1, the FAR allows some written justifications and approvals for contracts
                          exceptions to the requirement for   awarded citing International Agreement.

                          written justification for non-      Source: FAR Subpart 6.302-4(c); 6.302­
                                                              5(c)(2); and 13.501(a)(2)(i)
                          competed procurements.

                          We reviewed 39 noncompetitive procurements from fiscal year
                          2008, with an estimated value of more than $72 million. Contract
                          data recorded in FPDS-NG showed that 11 of the noncompetitive
                          procurements required justification and written approval. However,
                          based on our contract file review, 3 of the 11 did not have a written
                          justification and approval document. For example, one of the three
                          procurements that did not have written justification and approval
                          documents was cited as a national security procurement under
                          FAR § 6.302-6 in FPDS-NG. However, according to documents
                          within the contract file, it appears that this procurement was an
                          international agreement between the United States and a foreign
                          government and as such, did not require a written justification and
                          approval. We could not determine whether the component
                          awarded this contract under other than full and open competition
                          exceptions or as an international agreement, which the FAR
                          provides an exemption for written justification and approval.


2
  The Small Business Administration’s (SBA) 8(a) Program, named for a section of the Small Business
Act, is a business development program created to help small disadvantaged businesses compete in the
American economy and access the federal procurement market. Participants are given preferential
treatment in federal contracting.


                 DHS Contracts Awarded Through Other Than Full and Open Competition 

                                      During Fiscal Year 2008 


                                                 Page 7 

        Sole Source Awards Under the 8(a) Program

        Of the 39 noncompetitive procurements from fiscal year 2008 that
        we reviewed, 23 or 59%, valued at about $29 million, did not
        require written justification because components awarded them
        under the Small Business Administration 8(a) sole source program
        exception listed in figure 1. However, FAR part 10 requires that
        agencies conduct market research for all procurements.
        Specifically, it requires that agencies perform market research to
        identify the capabilities of small businesses that are available in the
        marketplace for meeting the requirements of the agency. It further
        states that agencies shall use this market research to determine
        whether sources capable of satisfying the agency’s requirements
        exist.

        Based on our review of the contract files, 16, or 70% of the 23
        procurements lacked any evidence that procurement personnel
        conducted market research. At one component, all 10 of the
        contracts we reviewed were awarded as 8(a) sole source awards,
        with no evidence that market research was performed for 8 of the
        10 contracts. The services purchased with these contracts varied
        from resource management to capital planning support for laundry
        services. The component awarded one contract, valued at $1.2
        million, as an 8(a) sole source contract for technical writing
        services to develop standard operating procedures for the
        component. Acquisition personnel did not conduct market
        research for this award, even though the services were not
        particularly unique or specialized and, quite possibly, other 8(a)
        firms may have been available to provide them. Correspondence
        in the contract file indicated that component personnel selected the
        contractor because a component official was “happy” with the
        contractor and “wanted to keep them on.”

        The Small Business Administration has a partnership agreement
        with the DHS where it delegates certain contract execution
        functions for sole source procurements under FAR part 19. This
        partnership agreement does not exempt procurement personnel
        from performing market research as required by FAR part 10.

        Without proper documentation to support and justify procurement
        decisions, DHS increases the risk that components are awarding
        inappropriate procurements. DHS also cannot be certain
        components considered alternative contractors for procurements in
        the Small Business Administration 8(a) Program. Ultimately, the



DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 8 

        department had no assurance that it was receiving the best possible
        value on the acquired goods and services.

        Market Research

        Many of the noncompetitive procurement files we reviewed for
        fiscal year 2008 did not contain sufficient evidence that market
        research was performed as required by the FAR. FAR § 10.001
        requires agencies to conduct market
        research before (1) developing new
                                                        The FAR defines market
        requirements documents for an                   research as collecting
        acquisition, and (2) soliciting offers for      and analyzing
        an acquisition that exceeds $100,000, is        information about
        less than $100,000 when adequate                capabilities within the
        information is not available and                market to satisfy agency
                                                        needs.
        circumstances justify the cost, or could
        lead to a bundled contract. Market
        research should be conducted to ensure that the government is
        procuring goods and services at reasonable costs, regardless of the
        status of competition.

        We identified deficiencies with market research for 29, or 76% of
        the 38 fiscal year 2008 noncompetitive procurements that required
        such market research. We previously discussed 16 of these 29
        procurements under the Sole Source Awards using the 8(a)
        Program on page 8. The remaining 13 noncompetitive
        procurements did not provide sufficient evidence that market
        research was performed before awarding the funds. FAR §§
        6.302-1 – 6.302-7 provide exceptions to full and open competition,
        but not for conducting market research. Some procurement files
        did not provide sufficient evidence that component personnel
        performed market research before awarding the contracts. Other
        files contained references to market research that contracting
        personnel had conducted, however the files lacked any type of
        supporting documentation. Specifically, we noted that:

            �	 For 7 procurements, the files did not contain evidence that
               component personnel conducted market research, as
               required. DHS components awarded 5 of the 7
               procurements, valued at $26,627,749, to a foreign
               government. None of the five contract files included
               documentation showing that component personnel
               conducted market research.



DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 9 

            �	 For the remaining 6 noncompetitive procurements valued at
               $11.3 million, contract personnel summarized or mentioned
               market research in the files but did not contain sufficient
               documentation such as price negotiation memorandums,
               determination of findings, and market research summaries,
               to support references to market research. For example, one
               contract awarded for the development of a software-defined
               multi-band radio project, valued at $6.2 million for FY08,
               made reference to market research having been conducted,
               but the contract file contained no documentation to support
               the component’s claim.

        The FAR provides limited guidance on the extent of market
        research that agencies must conduct and document with
        procurements. In addition, the Department of Homeland Security
        Acquisition Regulation and the Department of Homeland Security
        Acquisition Manual, followed during FY 2008, did not provide any
        further guidance to DHS components than what was in the FAR.
        This guidance required agencies to conduct market research, but
        did not require them to validate supporting documentation or
        assign responsibility to specific personnel. This allows personnel
        to apply market research requirements inconsistently. For
        example, some contracts contained a written market analysis, while
        others contained copies of data compiled from internet searches
        and cited as market research.

        DHS updated its Homeland Security Acquisition Manual in
        October 2009 to include a Market Research Guide in Appendix I.
        This guide provides additional department-wide guidance to assist
        Acquisition Teams in determining the most suitable approach to
        acquiring, distributing, and managing supplies and services to
        support the department’s mission. The Market Research Guide
        provides policies and procedures for conducting market research.
        The guide explicitly states that market research:

                �	 Should start as soon as requirements are forecast as part
                   of the acquisition planning and the development of the
                   Advance Acquisition Plan.

                �	 Efforts and results must be clearly documented and
                   included in the contract file.

                �	 Reports should be appropriate to the size and
                   complexity of an acquisition.


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 10
        The Market Research Guide emphasizes for DHS components that
        a market research plan is essential to ensure that the market
        research conducted is adequate and appropriate to the requirement.
        The guide goes further to state that the market research plan should
        document the overall research techniques the acquisition team will
        employ, information sources to be used, responsibilities of the
        team members, decision points in the process, and the timeframe
        for each task. The guide also provides attachments that list
        specific resources for market research, rules for meeting with
        industry representatives, guidelines for one-on-one discussions,
        and a market research report template.

        The publication of such guidance should help DHS correct the
        market research deficiencies previously noted. By following both
        the departmental and federal policy, DHS components can ensure
        that they obtain the greatest overall benefit in response to
        procurement requirements.

        Acquisition Planning

        The DHS components we reviewed either did not prepare or could
        not provide the acquisition planning documentation required for
        some procurements awarded in fiscal year 2008. According to
        FAR § 2.101, acquisition planning is the process by which the
        efforts of all personnel responsible for an acquisition are
        coordinated and integrated into a comprehensive plan for fulfilling
        an agency’s needs in a timely manner and at a reasonable cost. It
        entails developing the overall strategy for managing an acquisition.
        FAR § 7.102 requires that agencies perform acquisition planning
        and market research to promote and provide for:

                �	 Procurement of commercial or non-developmental
                   items to the maximum extent practicable; and

                �	 Full and open competition; or competition to the
                   maximum extent practicable, with due regard to the
                   nature of the supplies or services to be acquired.

        The Department of Homeland Security Acquisition Manual,
        Appendix I, requires DHS to prepare a written acquisition plan for
        non-developmental acquisitions valued greater than or equal to $10
        million. One exception is for research and development
        procurements valued greater than or equal to $5 million, which
        also require written acquisition plans. For all other acquisitions


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 11 

        valued less than $10 million, entry of information into the Advance
        Acquisition Plan database satisfies the written acquisition plan
        requirement. The Federal Interagency Database Online, located at
        www.fido.gov, is DHS’ search tool for planned acquisitions for
        requirements over $100,000.

        The Advance Acquisition Plan (AAP) is a DHS plan of all
        anticipated procurements, including interagency agreements,
        blanket purchase agreements, and task orders greater than
        $100,000 for the upcoming fiscal year. Acquisition personnel
        develop the plans on a fiscal year basis for procurements over
        $100,000 and less than $10 million ($5 million for research and
        development) and modify the plans throughout the acquisition
        cycle using the DHS wide electronic AAP system under
        www.fido.gov. AAPs contain the integrated and coordinated
        efforts of all relevant acquisition personnel in determining
        acquisition requirements, financing, strategic planning, small
        business considerations, technical data requirements, contracting,
        and contract administration.

        One of the 39 noncompetitive procurements in our sample required
        a written acquisition plan, which was contained in the contract
        file. The remaining 38 contracts required procurement personnel
        to enter advance acquisition planning information into the Federal
        Interagency Database Online system. Taking this action satisfied
        the written requirement for acquisition planning information. We
        found evidence, such as printouts from the system or references to
        the contract’s AAP number, in 11 or 29% of the 38 contract files.
        However, the remaining 27, or 71% of the contract files, valued at
        more than $58 million, did not contain evidence that contracting
        personnel satisfied the written acquisition plan requirement, or
        contract personnel could not provide the AAP numbers to enable
        us to retrieve the information.

        There is currently no requirement at the federal or component level
        to include AAP numbers in the contract files. However,
        Procurement Operating Procedure 107, issued by the DHS Office
        of Procurement Operations on May 22, 2008, directs acquisition
        personnel to identify and describe program requirements in the
        Federal Interagency Database On-Line and obtain AAP numbers
        for their procurements and include the numbers in their purchase
        requests. For procurements not managed by the DHS Office of
        Procurement Operations, the guidance allows acquisition personnel
        to exclude AAP information from the contract files. Without the


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 12 

        AAP, supporting documentation is limited to confirm whether
        personnel adequately performed advanced acquisition planning.

        The department needs to place greater emphasis on better planning
        and documenting its acquisitions and decision making processes.
        Making sure each component’s acquisition decisions are well
        documented, integrated, and coordinated in determining
        requirements, financing, strategic planning, small business
        considerations, technical data requirements, contracting, and
        contract administration, will assist the department in this effort, as
        well as in ensuring that the goods and services acquired are the
        best value.

Recommendations
        We recommend that the DHS Chief Procurement Officer, in
        coordination with DHS component heads of contracting activity:

        Recommendation #1: Implement a strengthened oversight review
        process for current and future other than full and open competition
        contract awards, including sole source contracts awarded under the
        8(a) Program, to ensure component procurement files contain
        sufficient documentation to show compliance with FAR
        requirements.

        Recommendation #2: Develop and implement guidance at the
        DHS level to require that acquisition personnel include Advanced
        Acquisition Plan numbers in procurement files, when applicable,
        based on established dollar thresholds.


Management Comments and OIG Analysis
        The Acting Chief Procurement Officer (CPO) provided comments
        on a draft of this report. A copy of the comments in their entirety
        is included in Appendix B. The Chief Procurement Officer
        concurred with the intent of Recommendation 1 and fully
        concurred with Recommendation 2. The CPO also provided
        technical comments and suggested revisions to sections of our
        report. As appropriate, we made changes throughout the report in
        response to the CPO’s technical comments and suggested
        revisions.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 13
        Management Comments to Recommendation 1

        CPO concurred with the intent of the recommendation. The CPO
        agrees that lack of sufficient documentation is an issue for FY
        2008 contract files, but believes it has a viable oversight program
        in place. Currently, the Office of the CPO maintains oversight of
        procurement actions that exceed specific dollar thresholds,
        conducts special reviews of specific contracting actions, and
        follows up on the special reviews. Additionally, the CPO indicated
        that a special review of noncompetitive contracts was recently
        completed to determine compliance with the FAR and that an
        additional follow-up review will be conducted during the first
        quarter of FY2011. The CPO plans to implement an action plan if
        the follow-up review reveals that significant improvements have
        not been made.

        OIG Analysis: Dependent upon completion of the follow-up
        review scheduled for FY2011 and its results, the CPO’s planned
        actions will satisfy the intent of this recommendation. The
        recommendation is resolved, but will remain open until the CPO
        provides the results of its FY2011 follow-up review and any
        actions taken as a result of this review.

        Management Comments to Recommendation 2

        The CPO concurred with the recommendation. The CPO will
        amend the Homeland Security Acquisition Manual to include a
        requirement that the Advanced Acquisition Plan number be
        included in the contract file.

        OIG Analysis: The CPO’s actions are responsive to the
        recommendation. The CPO’s revision of the Homeland Security
        Acquisition Manual to include the Advanced Acquisition Plan
        number in the contract file shows the department’s efforts to place
        greater emphasis on better planning and documenting its
        acquisitions and decision making processes. This recommendation
        is resolved, but will remain open until the CPO provides a copy of
        the updated/amended Homeland Security Acquisition Manual.

        Management Technical Comments on Report Content

        The CPO also provided technical comments and suggested
        revisions to sections of our report. We made a number of changes
        throughout the report in response to these technical comments and


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 14
        suggested revisions. However, we did not make changes to the
        following areas:

        Noncompetitive Procurement Justification and Approval: The CPO
        did not agree that 3 of the 11 noncompetitive awards required a
        justification and approval document. For the 3 contracts cited in
        the report, which were competitive procurements, two did not
        require justification and approval because they were awarded as
        single award 8(a) contracts and the other contract was awarded as
        an International Agreement.

        OIG Analysis: We relied solely on the documentation within the
        contract file to perform our compliance review. We also relied on
        the information in FPDS-NG to provide us with correct contract
        information. The three contracts referenced in this section were
        included in our contract file review because they were coded as
        either “not available for competition” or “not competed.”
        Furthermore, during our file review, the contract that was awarded
        under an International Agreement did not contain the required
        Letter of Agreement, as noted in the comments to the draft report.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2008 


                              Page 15
Appendix A
Purpose, Scope, and Methodology

                    On September 30, 2008, the President signed Public Law 110-329,
                    the Consolidated Security, Disaster Assistance, and Continuing
                    Appropriations Act, 2009. Section 525(d) of the law directs the
                    OIG to review the department’s contracts awarded during fiscal
                    year 2008 through other than full and open competition to
                    determine departmental compliance with applicable laws and
                    regulations.

                    To meet the requirements of this legislative mandate, we reviewed
                    applicable federal laws and regulations, as well as DHS and
                    component-specific guidance to identify requirements for
                    noncompetitive contract awards. We examined prior audit reports
                    to identify related work in this regard. We also reviewed DHS
                    procurements in fiscal year 2008 to determine whether selected
                    components’ justifications for noncompetitive procurement awards
                    contained required elements and were appropriately approved.

                    We sampled procurement files for four of eight DHS procurement
                    offices. We selected for review the procurement offices with the
                    highest estimated dollar value of contracts awarded through other
                    than full and open competition, as reported in FPDS-NG. We
                    coordinated our selections with the Government Accountability
                    Office team that performed a similar audit during the same
                    timeframe. Our sample covered procurement offices within the
                    U.S. Coast Guard, Transportation Security Administration, Federal
                    Emergency Management Agency, and the DHS Office of
                    Procurement Operations, which is responsible for acquisitions by
                    the Office of the Secretary and the U.S. Citizenship and
                    Immigration Services.

                    We reviewed a judgmental sample of 39 noncompetitive based
                    contract procurement files, with approximately 10 files from each
                    selected component that FPDS-NG indicated were awarded
                    through other than full and open competition. We reviewed the
                    procurement files to determine whether they contained the
                    documentation needed to justify the contract awards. Specifically,
                    we determined whether the noncompetitive procurement files
                    contained proper justifications and approvals, adequate market
                    research, and acquisition plans appropriate to the dollar values of
                    the awards. Because there is no assurance that a judgmental sample
                    is representative of the entire universe, our review results should
                    not be projected to all DHS procurements.




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 16
Appendix A
Purpose, Scope, and Methodology

                    We conducted our fieldwork between October and December of
                    2009 at contracting offices in Washington, D.C., and Emmitsburg,
                    Maryland. We conducted this performance audit under the
                    authority of the Inspector General Act of 1978, as amended, and
                    according to generally accepted government auditing standards.
                    Those standards require that we plan and perform the audit to
                    obtain sufficient, appropriate evidence to provide a reasonable
                    basis for our findings and conclusions based on our audit
                    objectives. We believe the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our
                    audit objectives.




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2008 


                                          Page 17
Appendix B
Management Comments to the Draft Report




                                                                   u.s. Department of Homeland Security
                                                                   Washington, DC 20528

                                                                  "iQ. Homeland
                                      FEB 1 8 2010
                                                                  \W   Security

        MEMORANDUM FOR:


        FROM:
                                              . ~derson
                                     Anne L. Richards
                                     t~:t d1::.~for
                                     Richard K.
                                                                     Audits

                                     Acting, Chief Procurement Officer
                                     Department of Homeland Security

       SUBJECT:                      CPO Response to Draft Inspector General Report: DHS
                                     Contracts Awarded Through Other Than Full and Open
                                     Competition During Fiscal Year 2008


       In response to your memorandum received on January 26, 2010, entitled Draft Report: DHS
       Contracts Awarded Through Other Than Full and Open Competition During Fiscal Year 2008,
       attached are the comments from the Office of the Chief Procurement Officer (CPO) for inclusion
       within the management comments appendix of the forthcoming final report.

       If there are any questions, please contact Mr. David J. Capitano, Director, Oversight and
       Strategic Support, at (202) 447-5417 or at david.capitano'a'dhs.go\.


        Attachments:
         CPO Response to Draft Report
         CPO Memorandum to HCAs: "Results of
          the OCPO On-Site Baseline Reviews"


        Cc:
         DHS Undersecretary for Management
         DHS Office of the Chief Financial Officer




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2008 


                                                     Page 18

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

                                                                                   Attachment

       I. CPO Response to OIG Draft Report Recommendations

       The draft IG report includes two recommendations to the Chief Procurement Officer (CPO);
       specific responses to each recommendation are provided below.

       Recommendation 1: "Implement a strengthened oversight review process/or current and/uture
       other thanfull and open competition contract awards, including sale source contracts awarded
       under the 8(a) Program, to ensure component procurement files contain sufficient
       documentation to show compliance with FAR requirements."

       CPO Response: While CPO agrees that lack of sufficient documentation is an issue for FY08
       contract files, we do not believe the solution is to "implement a strengthened oversight review
       process." This recommendation implies that the current oversight process is not adequate; CPO
       disagrees with that implication. Instead, CPO believes that the solution is to continue our
       existing, effective oversight program in this area and, should the results of our follow-up reviews
       indicate that improvements are not being made, implement an additional action plan (e.g.,
       increased accOlUltability, more pre-award reviews/approvals by CPO) to address the problem..

       The subject recommendation incorrectly suggests that the Department's current oversight review
       processes are inadequate with respect to other than full and open competition contract awards,
       including sole source contracts awarded under Section 8(a) of the Small Business Act. We
       believe that CPO has an effective pre-award and post-award oversight program for
       noncompetitive contracts.

       In regards to pre-award oversight, pursuant to the Homeland Security Acquisition Manual
       (HSAM), the CPO reviews andlor approves components' acquisition planning documents, sole
       source justifications, and other administrative aspects of procurement actions conducted under
       other than fuB and open competition that exceed specified dollar thresholds. In addition, OCPO
       conducts post-award oversight reviews of component contract actions, including those awarded
       via other than full and open competition, without dollar threshold limitations. These reviews
       occur during the component specific procurement management reviews (each component is
       reviewed every three years).

       CPO also conducts special reviews of specific contracting areas. This includes the recently
       completed special review of noncompetitive contracts by CPO's Procurement Oversight Branch.
       The purpose of this special review was to determine whether DHS contracting activities are
       awarding non·competitive contracts in compliance with the requirements set forth in the Federal
       Acquisition Regulation (FAR) Part 6.3, the Homeland Security Acquisition Regulations
       (HSAR), the Homeland Security Acquisition Manual (HSAM), and DHS acquisition policies and
       guidance. A copy of the draft report findings and recommendations has been sent to the
       contracting activities for comment. The final report, which will be issued later this month, will




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2008 


                                                      Page 19

Appendix B
Management Comments to the Draft Report




                  CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                      Other than Full and Open Competition During Fiscal Year 2008"

       be provided to the DHS IG. We also will be performing a follow-up review in the first quarter of
       FYll related to this special review to determine if (a) the reconunendations in our report have
       been implemented, and (b) whether the implementation of those reconunendations has improved
       compliance by DHS contracting activities with the applicable FAR, HSAM, and HSAR
       requirements. It is anticipated that the report on the follow-up review will be issued sometime
       in January, 2011. Should this follow~up review disclose that significant improvements have not
       been made in the areas where deficiencies were identified in the initial special review, CPO will
       initiate additional actions (e.g., increased accountability, lower thresholds for CPO and/or HCA
       approval for pre-award reviews) to address this issue.

        It is important to note that the results of both our component oversight reviews and special
        reviews are submitted to component leadership to assist in targeting training opportunities and
        emphasizing process enhancements. In addition, in the enclosed September 2, 2009
        memorandum to the Heads of Contracting Activities entitled "Results of the OCPO On-Site
        Baseline Reviews", CPO swnrnarized and emphasized the most prevalent findings of our
        component specific baseline reviews. This included an emphasis on the need to improve J&A's,
        acquisition planning, and general file documentation; for example:

               Justification and Approval fJ&A): the memorandum addresses contract files that did not
               contain a required J&A and other cases where the J&A was not signed, and/or lacked an
               adequate justification for an award on the basis of other than full and open competition;

               Acquisition Planning rAP): the memorandum advised HCAs that some contract files did
               not adequately document the acquisition planning process; and,

               General File Documentation: the memorandum notes that some contract files were not
               sufficient to constitute a complete history of the transaction as required by FAR 4.801
               and reminded HCAs that contracting persoIUlel must assure that the contract files are
               sufficient to provide a complete history of every contract or order.

        The OCPO oversight branch currently has a thirteen-member staff comprised of senior subject
        matter government experts with in-depth knowledge and experience in areas of acquisition,
        procurement, contract pricing and auditing/inspector general support. OCPO's annual oversight
        program plan delineates the oversight and support functions planned for the year commensurate
        with the personnel available to perfonn them. This program plan defines, by quarter, the
        component, special and follow-up reviews scheduled for the year, as well as the support function
        and plans to address any prior year backlog activities. All of the various reviews are scoped in
        advance to define the frequency, methodology and levels of oversight to be provided.

        In summary, while CPO agrees that documentation for FY08 noncompetitive awards is an area
        where improvement is needed, we do not believe the recommended solution ("strengthen
        oversight") is an appropriate recommended solution. CPO already has an effective oversight
        program in the area of contract documentation, including the performance of extensive oversight



                                                       2




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2008 


                                                     Page 20

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DRS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       reviews, issuance of reports to HCA's, and issuance ofa memorandums to all HeA's
       emphasizing the importance of such documentation. CPO believes the solution is to continue
       our current oversight efforts, including conducting a follow·up review to our special review on
       noncompetitive contracts. Furthermore, if this follow·up review indicates that improvements are
       not being made, CPO will implement an action plan (e.g., increased accountability, more pre-
       award reviews/approvals by CPO) to address the problem.

       Recommendation 2: "Develop and implement guidance at the DHS level to require that
       acquisition personnel include Advanced Acquisition Plan numbers inprocurementfiles, when
       applicable, based on established dollar thresholds."

       CPO Response: CPO concurs with this recommendation. OCPO will amend the HSAM to
       include a requirement that the Advanced Acquisition Plan number be included in the contract
       file.

       II. CPO General Comments: Contract Competition within DHS

       In addition to the negative findings noted in the report, CPO recommends that the report also
       recognize the significant accomplishments that DHS has made in the area of competition. The
       percentage of DHS obligations awarded through competitive contract actions increased from 69
       percent in Fiscal Year (FY) 2007 (i.e., $7.2 billion in competitive actions awarded from a
       competition base of$10.4 billion) to 75 percent in FY 2008 (Le., $9.9 billion in competitive
       actions awarded from a competition base of $13.2 billion). In addition, six of the eight DHS
       Contracting Activities also achieved a competition rate (in tenns of competitive obligations) of
       70 percent or greater. These outstanding accomplishments contributed to DHS realizing a 75
       percent level of competition for FY 2008. This success continues a positive 6·year trend for
       DHS in the area of competition, as illustrated by the Exhibits that follow:

              Exhibit 1 - DRS Summary Competition Data: Fiscal Years 2006 - 2008
                              De p artment -WI' de a n db y Compone D t
                                                 FY 2008                FY 2007              FY 2006
                     DHS            Accomplishment Accomplishment                        Accomplishment
              Component/Contracting in ~~mpe~~ion   in ~~mpetition                         in Competition
                    Activitv            Dollars         Dolla~i                               IDollars\
                 CBP Includes ssl"\                74%                    65%                   60%
               OHS-HQ. OPO and crs                 80%                    66%                   54%
                      FEMA                         79%                    81%                   37%
                      FLETC                        74%                    77%                   85%
                       ICE                         79%                    70%                   57%
                         TSA                       71%                    62%                    61%
                        USCG                       68%                    73%                    53%
                        USSS                       47%                    49%                    42%
                  OeDartmentwide                   75%                    69%                    48%
             Data Source for Exhibits 1 and 2; Federal Procurement Data System. Next Generation (Detembtr 2008)




                                                             3




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                          Page 21

Appendix B
Management Comments to the Draft Report




                    CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                       Other than Full and Open Competition During Fiscal Year 2008"

                              Exhibit 2 - DHS 6-Year Competitive Trends


                                  DHS 6-Year Competitive Trends


            ~
                      80%
                      70% -
                                                                                          ...
            ~ i       60%
                      50%


            ~J
                                                                     ~
                      40%
                      30%
                      20%
            '!5       10%
            ~
            •          0%
                                 FY03        FY04        FY05        FY06        FY07   FY08
                                                          Fiscal Year


        As illustrated in Exhibits 1 and 2, FY 2008 marked a recovery by DHS to pre-Katrina levels of
        competition. FY 2008 was the third, over a six fiscal year period, in which DHS achieved a level
        of competition equaling or exceeding 70 percent.

        During FY 2008, DHS and its Components increased its actions and activities to promote
        competition and acquire commercial items. Specifically, Headquarters and Component actions
        included:

           •      Increased accountability, organizational changes, and realigrunent;
           •      Increased staffing and expanded training programs;
           •      Expanded policy and enhanced review processes; and
           •      Improved use of technological solutions.

        Increased Accountability, Organizational changes, and realignment

        The DHS Competition Advocate worked with each Component to establish annual competition
        goals, encourage Components to attain competition goals, and identify and resolve barriers to
        competition. As part of this effort, the DHS Competition Advocate and Component Competition
        Advocate monitored competition data as reported to the Federal Procurement Data System-
        Next Generation (FPDS-NG) to track competition achievements throughout the year. Mid-year
        reports were provided to each Component Head of the Contracting Activity highlighting
        achievements and, as appropriate, identifying areas in need of improvement. Competition
        Improvement Plans were requested from Components in danger of missing their goals. In



                                                          4




                  DHS Contracts Awarded Through Other Than Full and Open Competition 

                                       During Fiscal Year 2008 


                                                        Page 22

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DRS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       addition, in response to a mandate from the Office of Federal Procurement Policy to improve the
       quality of contract data reported to FPDS-NG, DHS and its Components underwent extensive
       efforts to verify, validate, and certify its FPDS-NG data as accurate and complete.

       Since July 2007, the DHS Competition Advocate has maintained the DHS Competition and
       Acquisition Excellence Awards Program as a means of renewing and increasing acquisition
       workforce interest in competition and related innovative procurement practices by recognizing
       and rewarding individuals and teams for outstanding contributions to the enhancement of
       competition and the use of innovative and best procurement practices. Awards were presented to
       three individuals and four teams under the DHS Competition and Acquisition Excellence Awards
       Program in July 2008.

        Specific Components accomplishments include:

              • Serving as the Competition Advocate, the Deputy Assistant Secretary for Management
                (DASM) issued ICE's first Annual Competition Advocate memo in January 2008. The
                memo emphasized that justifications for non·competitive acquisitions would be closely
                scrutinized and that managers would be required to fully explain why competition was
                not feasible. The DASM also directed the ICE Office of the Principal Legal Advisor to
                review sole source and limited source justifications for legal sufficiency. In addition,
                ICE included competition goals in the annual performance plans of Senior Acquisition
                leadership.

              • As part of the restructuring of its competition advocacy program, in June 2008, the
                USCG delegated a Headquarters Procuring Activity Competition Advocate (PACA)
                and two Field PACAs, one to serve the west coast and the other to serve the east coast.
                The Headquarters PACA was delegated authority to approve Justifications for Other
                Than Full and Open Competition for requirements valued between S550,000 and SII.5
                million. The Field PACAs were delegated authority to approve justifications and
                approvals (J&As) for requirements valued between $550,000 and $1 million.
                Contracting officers were delegated authority to approve J&As valued up to $550,000.
                This hierarchical structure and separation of duties refocused the attention of details,
                and horizontally realigned the administration of the overall competition advocate
                program into manageable sections for efficiency and effectiveness.

               • FEMA established a Contract Management Review Board (CMRB), of which the
                 Competition Advocate is a standing member. The CMRB promotes competition,
                 commercial item acquisitions, and the elimination of overly restrictive requirements
                 through its review of acquisition plans, statements of work, and contract provisions and
                 clauses.




                                                       5




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                     Page 23

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       Increased staffing and expanded training programs

       Building and sustaining the DHS acquisition workforce is a priority of the Chief Procurement
       Officer (CPO), not just in the area of procurement and contracting, but in all the other disciplines
       that make up an acquisition workforce. Recognizing that Governmentwide, the demand for
       Contract Specialists exceeds the supply, DHS implemented a series of targeted efforts to anract
       and retain a skilled contracting workforce. At DHS, Contract Specialist staffing (Series 1102)
       nearly doubled from an on-board staff of 603 in Fiscal Year 2004 to 1,107 Full time Equivalent
       (FIE) as of mid-September 2008. In 2008, DHS was staffed at 84.2 percent of its authorization
       for l102s. DHS also increased its FTEs in the areas of procurement oversight, program
       management, and cost analysis. DHS recognizes that having adequate staffing levels impact the
       quality of docwnentation supporting individual procurement actions, the degree of competition
       needed to achieve competition goals, and DHS's ability to ensure compliance with the
       Competition in Contracting Act (CICA).

       DHS and its Components placed a high priority on training and professional development for all
       members of the acquisition workforce. During FY 2008, the CPO, who is responsible for all
       aspects of acquisition at DHS, initiated formal training and certification programs for Program
       and Project Managers, Test and Evaluation Engineers, Contracting Officers Technical
       Representatives, and Cost Analysts. DHS Components reported a significant increase in the
       nwnber of certified acquisition professionals under these programs.

       In addition to the certification programs, DHS and its Components provided supplemental
       training opportunities to members of the acquisition workforce. For example:

         • The DAU on line CLC 015, Commercial Acquisition class was offered at the FLETC.
           Additionally, the FLETC Procurement Division provided a 3-hour module of purchasing
           training to new supervisors which covered commercial item acquisition procedures.

         • APL developed a training program to guide Component procurement personnel in the
           documentation and review processes related to the application of exceptions to full and open
           competition contained in FAR Subpart 6.3. Over 100 students were trained in five sessions.

         • Components also provided training on FPDS~NG data reporting. FEMA sponsored two
           training sessions focusing on properly entering data into FPDS-NG. HQ-OPO's ADMT
           provided mandatory FPDS-NG training to all OPO contracting officers and contract
           specialists. FLETC initiated the development of training guides to ensure that contract
           actions were properly coded and reported in FPDS-NG to ensure accuracy. USCG's data
           accuracy review was followed-up with FPDS-NG training conducted at 48 contracting
           activities.

         • The HQ-OPO Policy, Oversight and Customer Support Division (POCS) provided targeted
           training in developing acquisition plans and statements of work. The training was provided


                                                        6




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                      Page 24

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "'DRS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

           as a means of fostering stronger relationships with program offices and to accomplish
           improved acquisition planning.

         • TSA conducted 18 workshops on a variety of acquisition topics. Several of the workshops
           focused on the competitive process, including writing statements of work, conducting market
           research, and understanding the source selection process.

         • ICE provided training on performance-based techniques to COTRs responsible for drafting
           perfonnance work statements and quality assurance plans.

         • The CBP Procurement Directorate provided training on FedBid® and market research.

         • In addition, DHS and its Components provided learning opportunities using other forums.
           For example, TSA' s Office of Acquisition hosted monthly Program Management Town Hall
           meetings where infonnation promoting competition, the use of commercial items, and
           lessons learned was shared.

        Expanded policy and enhanced review processes

        DHS and its Components developed policies, procedures, and processes to enhance competition
        and increase the use of commercial item acquisitions. For example:

         • CBP established and implemented a more stringent J&As process for actions awarded under
           other than full and open competition during FY 2008. As a result, the CBP Competition
           Advocate was able to reduce the number of non-competitive actions from 31 actions in FY
           2007 to 26 actions in FY 2008, a difference of 16%.

         • Owing FY 2008, the HQ-OPO Competition Advocate continued to discourage, and in some
           cases, reject the inclusion of option periods in non~competitive procurements Elimination of
           option periods forces a requisitioner to revisit market research, thereby, increasing the
           potential for a competitively awarded procurement action. The Competition Advocate also
           challenged several requirements that limited competition on the basis of expediency. As a
           result, the requirements were revised and advertised to maximize competition. In addition,
           the HQ·OPO's implementation of POP 501, "'Procedures for Tracking J&A and Limited
           Source Justifications (LSJ)," issued on October 17,2007, created opportunities for increased
           competition by improving the tracking and analysis of HQ-OPO J&As and LSJs. The
           tracking process enabled HQ·OPO and its Competition Advocate to capture data on sole·
           source procurements, and facilitated the conduct of periodic trend analysis and the
           identification of competitive barriers. Periodic review allowed the Competition Advocate to
           take the appropriate action throughout the fiscal year as opposed to after the fiscal year had
           ended.




                                                       7




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                    Page 25

Appendix B
Management Comments to the Draft Report




                CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                   Other than Full and Open Competition During Fiscal Year 2008"

        • In June 2008, the USCG Competition Advocate function was reassigned from the Head of
          the Contracting Activity to the senior civilian in the acquisition directorate. The Competition
          Advocate's extensive engineering background provided an independent technical assessment
          capability that had not existed previously, improving the rigor of the review and approval
          process. For similar reasons, in 2008, TSA's Head of the Contracting Activity appointed a
          Senior Executive with broad acquisition and program management background to serve as
          the Competition Advocate.

        • Review teams from the USCG Office of Procurement Policy and Oversight completed eight
          on-site visits to field offices to review intemal control plan compliance. A major part of the
          review was to ensure compliance with the CICA. In addition, as part of the USCG
          oversight/quality assurance process, procurement analysts at USCG Headquarters routinely
          reviewed FedBizOpps synopses and other announcements for competition and commerciality
          of proposed contract actions. USCG has a rigorous program to implement the requirements
          prescribed in FAR 6.302-1(b)(4) when the agency head detennined that only specified makes
          and models of technical equipment and parts would satisfy the agency's needs for additional
          units or replacement items, and only one source was available. The program is comprised of
          several levels of review and approval by both the requiring activity and the Office of
          Standards and Capabilities to ensure essentialness.

        • FLETC instituted a local standard operating procedure that required supervisory review and
          concurrence of any sole-source awards over the micro-purchase threshold.

        • TSA's Management Directive 300.13, "Acquisition Using Other than Full and Open
          Competition," established thresholds for approvals within TSA for all non-competitive
          contract actions. The approval levels are more stringent than the FAR requirements to ensure
          higher levels of review and approval for non-competitive actions. lluough the procurement
          planning conference process, the Office of Acquisition has successfuUy identified non-
          competitive plans earlier and has worked with the program offices to increase competition.

       Improved use of technological solutions

       DHS and its Components increased their use of technology such as FedBid, a web-based reverse
       auction tool that allows Federal buyers to procure commercial commodity-type requirements to
       satisfy competition goals. Use of reverse auctioning solutions to compete commercial
       requirements in FY 2008 increased transparency, facilitated open competition, and resulted in
       considerable savings. For example, using FedBid, total dollars competed by CBP included
       Sl n.4 million, with estimated savings at $12.9 million or 7.5%. HQ-OPO successfully awarded
       over $16.9 million and achieved a savings of9.4% from the Government Cost Estimate.

       Components used the GSA e-buy system, where applicable, to solicit goods and services under
       FSS. The use of e-buy broadly disseminates solicitation requirements and promotes competition.



                                                       8




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                     Page 26

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       III. CPO Comments on Report Content

       The following comments are provided in accordance with the draft report sections as specified
       below.

       Executive Summary:

       We recommend that paragraph two of the executive summary be revised to read as follows:

              "In fiscal year 2008, the Department of Homeland Security obligated about
              $3.3 billion for procurements awarded through other than full and open
              competition. Based on our review of39 noncompetitive contract
              procurements, with a total reported value of more than $72 million,
              acquisition personnel did not always adequately document the files to show
              that they had complied with applicable federal acquisition regulations when
              awarding noncompetitive awards. Award files did not always have
              sufficient evidence of market research or adequate acquisition planning."

       Section entitled "Background." pages 2 through 5.

       CPO notes that within the second paragraph on page 2, the next-to-Iast sentence incorrectly
       states that FPDS-NG ". . measures various elements ofprocurement performance.
       However, FPDS-NG is a database where contracting officers record various data elements
       related to their contract actions. Therefore, CPO recommends that this sentence be revised to
       read:

              "FPDS-NG provides a comprehensive web-based toot for agencies to report
              contract actions; and FPDS-NG reports provide a means for measuring and
              assessing various elements of procurement performance, e.g., competition."

       Within the fourth paragraph on page 2, the first sentence states: "Competition is desirable
       because it can result in the timely delivery 0/ quality products and services at reasonable costs."
       The first sentence as written implies that sole source procurements do not result in timely
       delivery of quality products and services at reasonable costs. Therefore, CPO recommends that
       the sentence be rewritten to read as follows:

              "Competition provides the best assurance that the Government has (a)
              received a fair and reasonable price, and (b) obtained the most comprehensive
              input on the technical aspects of the various methods in which the work can
              best be performed."

       CPO notes that on page 3, within the fIrst full paragraph, the description of the flow chart
       depicted below this paragraph (last sentence) incorrectly states that: "Within 14 days o/posting



                                                        9




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                      Page 27

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DRS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       the solicitation, acquisition personnel award the contract and publish the justification and
       approval document on FedBizOpps, ending the contracting process." This statement is not
       entirely accurate. Therefore, CPO recommends that this sentence be revised as follows:

              "After a contract is awarded under other than full and open competition, the
              FAR requires the agency to make the justification publicly available within 14
              days, unless the contract is awarded under the exception for Unusual and
              Compelling Urgency, which pennits public posting within 30 days. The
              justifications are posted at the Government Point of Entry, FedBizOpps."

       Also, CPO notes that the "Other than Full and Open Competition Process" flowchart, on page 3,
       depicts a standard process for all contracts awarded under other than full and open competition.
       However, this standard process does not apply in all situations. For example, the exception to
       other than full and open competition under Unusual and Compelling Urgency pursuant to FAR
       6.302-2 does not require announcing a solicitation on FedBizOpps. The same is true for
       procurements authorized or required by statute under FAR 6.302-5, and certain actions related to
       national security at FAR 6.302-6. FAR 5.202 identifies other reasons for exceptions to the
       synopsis requirement. Therefore, CPO recommends that the flowchart be changed as follows:
                 th
              - 4 block should read: Announce the Solicitation on FedBizOpps unless an
              exception is authorized;

              - 5th block should read: Evaluation and Award;

              - 6th (last) block should be revised to reflect both of the required posting
              timeframes (i.e., 14 days and 30 days) or none at all; and,

              - Another block should be added to read: Contract Administration Phase Begins.

       With respect to the various defmed roles, beginning on page 3 after the flow chart and continuing
       to page 4, CPO recommends that the additional role of the component Procuring Competition
       Advocate (PACA) be added. Their role is the same as the DHS Competition Advocate, but at
       the component level. CPO reconunends the following language for the PACA role:

              "The Procuring Competition Advocate (PACA) is responsible for promoting
              full and open competition; promoting acquisition of commercial items; and
              removing barriers to full and open competition, such as urmecessarily
              restrictive statements of work, overly detailed specifications, and
              burdensome contract clauses at the component level. PACAs must submit
              an annual report to the DHS Competition Advocate on the components'
              procurement activities."




                                                        10




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                      Page 28

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DRS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       In addition, since justifications have to be certified by a Technical Representative (see FAR
       6.303-1{b) and DHS J&A Guide), CPO recommends adding a role entitled "Technical
       Representative" with the following language:

              "Technical Representatives are responsible for providing and certifying as
              accurate and complete necessary data to support their recommendation for
              other than full and open competition."

       With respect to the "Heads of contracting activity" (HCAs) role described on page 4, CPO
       recommends that the tenn "'acquisition/unctions" within the first sentence be revised to read
       "procurement functions" in order to correctly describe the role of the HCAs. HCAs' support the
       execution of acquisition programs via the procwement process and provide procurement data to
       the CPO. Therefore, CPO recommends that this bullet be revised as follows:

               "Heads of contracting activity directly manage the procurement functions
               of their respective components. They assist in the execution of acquisition
               programs by providing all of the necessary resources, facilities, and
               infrastructure for the procurement process. The heads of contracting
               activity also provide procurement data and lessons learned to the Chief
               Procurement Officer for wider distribution within DHS."

       Finally, within the last paragraph of this section, on page 5, CPO notes that the fourth sentence,
       states "We selected 39 noncompetitive procuremenrs for review with an estimated value ofmore
       than $72 million." As currently written, this sentence could be interpreted as meaning each of
       the procurements reviewed were in excess of$72 million, rather than the fact that the total value
       of the all the procurements reviewed was $72 million. Therefore, CPO recommends that this
       sentence be revised to read as follows:

                "We selected 39 noncompetitive procurements for review with an
               estimated total value of more than $72 million."

       SectiOD entitled "Results of Audit," pages 6 tbrougb 13.

        The section entitled "Results of Audit," within the first paragraph, states that 39 DHS
        procurement files were reviewed and that 33 had missing or inadequate documentation needed to
        prove compliance with departmental or federal acquisition regulations. We believe this does not
        provide a complete or accurate review of the report fmdings, because it groups multiple areas
        together. To assure a clear understanding by the reader, we recommend that this paragraph be
        re-Wrinen to read as follows:

               "Our review and analysis of39 DHS procurement files awarded
               during fiscal year 2008, through other than full and open
               competition, included 16 noncompetitive contract procurements



                                                       11




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2008 


                                                     Page 29

Appendix B
Management Comments to the Draft Report




                  CPO Response to OIG Draft Report: "DHS Contracts Awarded Through
                     Other than Full and Open Competition During Fiscal Year 2008"

               plus 23 sole source contracts with the Small Business
               Administration (SBA) at TSA, FEMA, USCG, and the Office of
               Procurement Operations (OPO), with a reported total value of
               more than $72 million. Of these 39 files, we found the following:

               Justification and Written Approvals: 0% - All reviewed files
               complied with the FAR requirements.

               Written Justification for Awards Under the 8(0) Program: 74%
               (17 of23) did not comply with the FAR requirements.

               Market Research (Other than Awards Under the 8(a) Program):
               (TBD*) % L· of _.) did not comply with the FAR
               requirements.

               Acquisition Planning: 71 % (27 of 38) either did not have the
               Advanced Acquisition Plan (AAP), referenced the incorrect AAP
               number, did not have a printout in the contract file, or component
               personnel could not provide the AAP numbers to enable us to
               retrieve the infonnation from the Federal Interagency Database
               On·Line."

               *Note: To be completed by DIG.

        CPO believes the above presentation provides a more accurate summary, and facilitates focus on
        each of the individual problem areas. Note that the numbers of the J&A 's that were
        noncompliant have been reduced to zero because we believe the three procurements cited as
        lacking a J&A in the report actually did not require a J&A (see comments below on the
        subsection entitled «Noncompetitive Procurement Justification and Approval"). In addition,
        CPO believes the 8(a) awards should not also be included in the market research statistics, since
        this would represent double·counting and not provide the reader adequate visibility of the
        findings related to the non-8(a) awards.

        In addition, since the percentage of noncompliance was zero in the area of Justifications and
        Written Approvals, we recommend that the first sentence of the second paragraph of this
        summary section (page 6 of the draft report) be rewritten to read as follows:

               "The procurement files reviewed did not always have sufficient evidence of
               market research or adequate acquisition planning".




                                                       12




               DHS Contracts Awarded Through Other Than Full and Open Competition 

                                    During Fiscal Year 2008 


                                                     Page 30

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: "DRS Contracts Awarded Through
                    Other than Full and Open Competition During Fiscal Year 2008"

       Subsection: "Noncompetitive Procurement Justification andApproval." pages 6 through 7.

       lltis section of the draft report (second paragraph, Page 7) asserts that 3 of the 11
       noncompetitive awards requiring a Justification and Approval (J&A) did not include the required
       J&A. CPO takes exception to this finding because we do not believe that any of these tluee files
       required a J&A.

       The three files cited by the IG are contracts awarded by the Office of Procurement Operations
       (OPO), TSA, and USCG. The rationale for why a J&A was not required for each of these
       contracts is provided below:

              1) HSTS0308CBTC015 (TSA): Single award 8(a) contract; justification and approval not
              required per FAR 6.203(b).

              2) HSCG2308CH25001 (Coast Guard): Justification and approval not required; the FAR,
              at 6.302-4(c), actually exempts the Coast Guard by name from this requirement. This
              contract was awarded pursuant to an International Agreement (see FAR 6.302-4). The
              file contains a signed letter-of-agreement and the award memorandum cites the authority
              for the exception to competition, again per FAR 6.302-4(c).

              3) HSHQDC08C00007 (OPO): Single award 8(a) contract; justification and approval not
              required per FAR 6.203(b).

       Based on the above, CPO recommends that the report be revised to recognize 100% compliance
       by DHS contracting activities in this area.

       Subsection: "Market Research," pages 9 through 11.

       CPO believes that the findings in this section should include only non-8(a) awards. Including the
       8(a) awards in both this subsection and the prior subsection represents double counting, distorts
       the results of the audit related to non-8(a) awards, and fails to provide the reader any insight into
       the noncompliance percentage related to the non-8(a) awards. Therefore, CPO recommends that
       the second paragraph of this subsection be re-written to read as follows:

              ....We identified deficiencies within market research for .. or _ .. % of the    •
              fiscal year 2008 noncompetitive procurements that were not 8(a) awards, as
              sununarized below:

                  •   For _ .. procurements, the files did not contain evidence that component
                      personnel conducted market research, as required.

                  •   For _ • procurements, market research was summarized or mentioned in
                      the files. However, the contract files did not contain sufficient



                                                        13




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                      Page 31

Appendix B
Management Comments to the Draft Report




                 CPO Response to OIG Draft Report: WDHS Contracts Awarded Through
                     Other than Full and Open Competition During Fiscal Year 2008"

                     documentation to support the summaries or the activities conducted. For
                     example, _ . of the _. procurements, with a total value of $_., were
                     from _. components and contained no documentation supporting that
                     market research had been conducted. Although market research was
                     mentioned in one report in a file, the file contained no documentation to
                     show that it had been done."

                      *Note: To be completed by DIG.

       Furthermore, on page 10, within the third paragraph, the first sentence states, "DHS updated irs
       Homeland Security Acquisition Manual in Ocrober 2009 to include a Marker Research Guide in
       Appendix L" This statement is inaccurate. On March 13,2009, the DHS Office of the Chief
       Procurement Officer issued for comment, and interim use, at the discretion of the component
       Heads of the Contracting Activity, the Draft Market Research Guide. Comments were received
       and incorporated in April- May 2009. A final Market Research Guide was released as part ora
       global DHS Acquisition Manual update on October I, 2009.




                                                       14




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2008 


                                                    Page 32
 

Appendix C
DHS Contracts Reviewed

                             DHS Contracts Reviewed3 FY 2008
                        1             HSFEEM08C0298
                        2            HSFEEM-08C0253
                        3            HSFEEM-08C0085
                        4            HSFEHQ-08C1710
                        5            HSFEHQ-08C9005
                        6            HSFEEM-08C0294
                        7            HSFEEM-08C0306
                        8            HSFEEM-08C0317
                        9            HSFEEM-08C0288
                        10            HSFEEM08C0137
                        11          HSCG2308CHBK001
                        12           HSCG2308CHIP005
                        13          HSCG2308CHBM001
                        14          HSCG2308CHGW001
                        15           HSCG2308CH25001
                        16          HSCG2308CTXT001
                        17           HSCG2308CE43042
                        18          HSCG2308CPMG012
                        19           HSCG2308CT00000
                        20          HSTS0108CHRM205
                        21           HSTS0308CBTC015
                        22          HSTS0308CCOM034
                        23           HSTS0108CFIN028
                        24           HSTS0108CFIN003
                        25          HSTS0208CMLS104
                        26          HSTS0208CCGO033
                        27           HSTS0108CRES485
                        28           HSTS03-8CCIO129
                        29           HSTS0108CFIN032
                        30           HSHQDC08C00019
                        31           HSHQDC08C00025
                        32           HSHQDC08C00197
                        33           HSHQDC08C00043
                        34           HSHQDC08C00131
                        35           HSHQDC08C00007
                        36           HSHQDC08C00198
                        37           HSHQDC08C00188
                        38           HSHQDC08C00177
                        39           HSHQDC08C00148




3
  Contract numbers downloaded from FPDS-NG. We provided each component a listing of contracts
reviewed with deficiencies noted during our review.



                DHS Contracts Awarded Through Other Than Full and Open Competition
                                     During Fiscal Year 2009

                                              Page 33
Appendix D
Major Contributors to this Report


                     Linda Howard, Director
                     LaParacina Robinson, Lead Audit Manager
                     Beverly H. Bush, Audit Manager
                     Mary Davis-Williams, Auditor
                     Hortencia Francis, Program Analyst
                     Elizabeth Garcia, Auditor
                     Brandon Landry, Program Analyst
                     Andrew Smith, Desk Officer




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2009 


                                           Page 34 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Acting Chief Procurement Officer
                      DHS Competition Advocate
                      Director Office of Procurement Operations
                      DHS Component Liaison, FEMA
                      DHS Component Liaison, Office of the Secretary
                      DHS Component Liaison, OPO
                      DHS Component Liaison, TSA
                      DHS Component Liaison, USCG

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2009 


                                           Page 35
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
